CASE NO.20 -

IN THE
SUPREME COURT OF THE UNITED STATES

LEDINSON CHAVEZ
Petitioner
v.
UNITED STATES OF AMERICA
Respondent

NOTICE OF SERVICE

Petitioner, Ledinson Chavez, by counsel, hereby serves notice that on July 2,
2020, he served the enclosed Motion For Leave to Proceed in forma pauperis and
Petition for Writ of Certiorari in forma pauperis. Upon the Solicitor General of the
United States.

R. Kenyon Meyer
DINSMORE & SHOHL LLP
101 S. Fifth Street, Suite 2500
Louisville, Kentucky 40202
Phone:(502) 540-2300
Fax:(502) 540-2529
Email: kenyon.meyer@dinsmore.com
Attorneyfor Petitioner
Ledinson Chavez

CERTIFICATE OF SERVICE
I hereby certify that the foregoing was this 2nd day of July, 2020 a copy was
served via U.S. Mail upon:
Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Ave
N. W., Washington, DC 20530-0001

. Kenyon Meyer
DINSMORE & SHOHL LLP

